No. 20-301
EEE

IN THE

Supreme Court of the United States

TimoTuy B. HENNIS,

Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE ARMED FORCES

 

REPLY BRIEF FOR THE PETITIONER

 

Certificate of Service

I, Timothy G. Burroughs, a member of the Bar of this Court, hereby certify that
on December 21, 2020, three copies of Petitioner’s Reply to Brief in Opposition in the
above-captioned case were mailed to the Solicitor General of the United States, Room
5614, Department of Justice, 950 Pennsylvania Avenue Northwest, Washington DC,
20530-0001, counsel for the Respondent herein.

  

I further certify that all parties required té be served have been served.

L,

Xe
Vrimoths G. Burroughs

 
 
  

S. Army Defense Appellate Division
U.S. Army Legal Services Agency
9275 Gunston Road

Fort Belvoir, VA 22060

(703) 693-0656
timothy.g.burroughs.mil@mail.mil
Counsel for Petitioner
